<html>
<title> - OPEN HEARING ON THE INTELLIGENCE COMMUNITY'S ASSESSMENT ON RUSSIAN ACTIVITIES AND INTENTIONS IN THE 2016 U.S. ELECTIONS</title>
<body><pre>[Senate Hearing 115-264]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 115-264

                    OPEN HEARING ON THE INTELLIGENCE
                   COMMUNITY'S ASSESSMENT ON RUSSIAN
                 ACTIVITIES AND INTENTIONS IN THE 2016
                             U.S. ELECTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, JANUARY 10, 2017

                               __________

      Printed for the use of the Select Committee on Intelligence





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-830 PDF                     WASHINGTON : 2018         
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             JOE MANCHIN, West Virginia
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                  Desiree Thompson-Sayle, Chief Clerk
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                                CONTENTS

                              ----------                              

                            JANUARY 10, 2017

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Mark R. Warner, Vice Chairman, a U.S. Senator from Virginia......     3

                                WITNESS

James R. Clapper, Director of National Intelligence, Accompanied 
  by: John Brennan, Director of the Central Intelligence Agency; 
  James Comey, Director of the Federal Bureau of Investigation; 
  and ADM. Michael Rogers, Director of the National Security 
  Agency.........................................................     5
    Prepared statement...........................................     8

 
                    OPEN HEARING ON THE INTELLIGENCE 
                   COMMUNITY'S ASSESSMENT ON RUSSIAN 
                 ACTIVITIES AND INTENTIONS IN THE 2016 
                             U.S. ELECTIONS

                              ----------                              


                       TUESDAY, JANUARY 10, 2017

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 1:03 p.m. in Room 
SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Present: Burr, Warner, Risch, Rubio, Collins, Blunt, 
Lankford, Cotton, Cornyn, Wyden, Heinrich, King, Manchin, 
Harris, and Reed.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call this hearing to order. I'd 
like to welcome our witnesses: Jim Clapper, Director of 
National Intelligence; John Brennan, Director of the Central 
Intelligence Agency; Jim Comey, Director of the Federal Bureau 
of Investigation; and Admiral Mike Rogers, Director of the 
National Security Agency.
    Directors Clapper and Brennan, while I've said this to you 
before in closed session, this is likely your last appearance 
before the Committee, at least in your current roles. I want to 
thank each of you, before you get out of here, for your many 
years of dedicated service both in uniform and out of uniform. 
Jim, John, in many different capacities, you have served your 
country in an unbelievable way, both of you. We want you to 
know how grateful we are to you and how grateful the Nation is 
to you for the service that you've provided.
    We convene today to discuss the President's directed review 
of Russian activities and intentions in recent U.S. elections. 
While Russia and the Soviet Union have used active measures as 
tools of statecraft since the 1920s, recent actions by the 
Russian government represent, as you reported, a notable 
escalation.
    I know that the public disclosure of these activities 
surprised many and the notion that another state would attempt 
to interfere in our elections is quite troubling. However, 
Russian active measures as a general topic is not new to the 
Members of this Committee. We've held more than 10 hearings and 
briefings over the last two years that have focused in whole or 
in part to better understand the scale and scope of these 
efforts and the intentions behind them.
    Each of our witnesses has appeared before us in closed 
session to discuss this topic, and in response, on a bipartisan 
and bicameral basis, this Committee and its sister committee in 
the other body have put forward unclassified and classified 
proposals to address these activities. Some work has been done, 
but to effectively address this challenge to the integrity of 
our system of government will require a ``whole of government'' 
approach.
    I look forward to hearing from our witnesses on the details 
of the intelligence community assessment. Intelligence 
reporting over the last few years, to include the classified 
and compartmented portions of this assessment, gives me no 
reason to doubt the findings contained within the product. That 
said, we owe it to our colleagues and the American people to do 
an independent and bipartisan review of the report and its 
conclusions.
    I've therefore instructed Committee staff to carry out an 
assessment of the sourcing behind this report, and we will be 
asking each of our witnesses to provide the Committee access to 
the intelligence that contributed to this assessment. I want to 
assure my colleagues on this Committee and in this body that we 
will follow the intelligence wherever it leads and we will 
conduct this review in a nonpartisan manner. I also want to 
assure the witnesses before us today, as has long been our 
practice, the Committee will treat the protection of these 
sources with the level of security and professionalism 
required.
    I'd also like to quickly thank the men and women of the 
intelligence community for their work in completing this 
review. To each of our witnesses: Please thank your respective 
staffs. I have no doubt that the President's directive, Jim, to 
you and to others ruined many's holiday plans.
    While this moment in our history is critical and the 
testimony before this Committee in an open setting will, I 
hope, help the American people understand what Russia attempted 
to accomplish as part of its focus on our 2016 elections, I 
want to make this clear: Our democracy is not at risk. We can 
rest assured in the strength of the United States of America 
and have continued faith in the electoral process.
    We must be alert, though, to the challenges that face us 
and the threats posed by those who seek to undermine Western 
democratic values, whether they are through interference in our 
elections or relentless propaganda and active measures 
targeting our friends and our allies abroad.
    Our values are indeed under assault. The key differences 
between the efforts of the past and the attacks of today, 
however, is the tools being used to carry these out.
    Gentlemen, thank you again for being here today. I look 
forward to your testimony, General Clapper, and to the 
opportunity to query questions to the rest.
    I will now turn to the distinguished Vice Chairman, the 
Senator from Virginia.

OPENING STATEMENT OF HON. MARK R. WARNER, VICE CHAIRMAN, A U.S. 
                     SENATOR FROM VIRGINIA

    Vice Chairman Warner. Well, thank you, Mr. Chairman, and I 
want to echo, first of all, your comments in terms of 
commending all the witnesses, but particularly Director Clapper 
and Director Brennan, for your great service to our country.
    I also want to acknowledge the new Members of our 
Committee, both new Members here, Senator Manchin and Senator 
Harris. I know Senator Cornyn will be joining us briefly and, 
while she's not here yet, I want to acknowledge the great role 
that Senator Feinstein has played, both as Chair and Vice Chair 
on this Committee.
    We're here today to discuss the intelligence community's 
comprehensive review into Russian interference in our 2016 
presidential election, for me one of the most serious events of 
my public life. Interference in American democracy and our 
electoral process by any outside power is unacceptable.
    Now, much of the press reporting and conversation about 
Russian activities have focused on the hacks of the DNC and 
John Podesta. But, as the report pointed out, the Russians also 
hacked systems associated with the Republicans. They just chose 
not to release that material yet. There's nothing that prevents 
them from doing so at a time of their choosing in the future.
    While the target of this campaign was Secretary Clinton, 
any of us, Democrats or Republicans, including members of this 
body, could easily be the next target.
    What the Russians did was nothing less than an attack on 
our political system and democracy itself. We can simply not 
allow it to stand.
    The IC assessment is more detailed, but is in line with the 
previous assessments from the intelligence community that 
Russian officials at the highest level, including President 
Putin, engaged in--in your words, not mine--``in an 
unprecedented level of interference in our election.'' It 
concludes that ``these actions had the goal of harming the 
candidacy of Hillary Clinton and boosting the candidacy of 
President-elect Donald Trump.''
    We are not here to re-litigate the results of the election. 
At the same time, I am committed to ensuring that there is a 
thorough, bipartisan, and expeditious Congressional 
investigation of Russia's role. In my view, our Committee 
should focus on three broad areas: the Russian hacking and 
release of stolen information; Russia's use of state-owned 
media and other means to amplify real and fake news to further 
their goal; and contact between Russian government and its 
agents and associates of any campaign and candidate.
    I, like you, Mr. Chairman, have written to all the 
witnesses here today asking them to cooperate with us in this 
investigation and turn over as many documents and as much 
evidence as quickly as possible. I, like you, am reiterating 
that call today. It is equally important that the incoming 
Administration and those folks who will take Director Clapper 
and Director Brennan's roles going forward will continue to 
cooperate in this effort.
    Additionally, it's my hope, while we've made a first step, 
that we'll continue to try to declassify as much material as 
possible while again protecting sources and methods.
    The American people deserve to know, as soon as possible, 
that their elected representatives have taken a close look at 
the intelligence report that we're considering today. They 
deserve to know whether we concur or not with its conclusions 
and that we're prepared to respond to the threats outlined in 
the assessment.
    The actions that the President took recently in response to 
Russian activities were an appropriate first step. At the same 
time, I still have questions why the Obama Administration 
didn't act further and didn't act sooner.
    But as we look forward, preventing future attempts to 
undermine our democracy and our position in the world will 
require a sustained response from the incoming Administration 
and from this Congress. I truly believe the strength of 
America's democracy will be measured in part on what actions we 
take to develop a robust and proactive cyber strategy.
    Part of that strategy must include tools and capabilities 
to deter and effectively respond to future attempts by foreign 
actors to influence America's democratic process.
    One of the things I've always valued about service on this 
Intelligence Committee is the tradition of leaving partisanship 
at the door oftentimes when we go into that SCIF. I look 
forward to working with you, Mr. Chairman, and all our Members 
to complete this investigation as quickly and expeditiously as 
possible.
    Gentlemen, your agencies--the work that your agencies 
completed underscores the importance of the role the Nation's 
intelligence community plays and the men and women who quietly 
work every day to keep our country safe. This report represents 
the best analysis of the men and women of the intelligence 
community. These are professionals who have taken an oath of 
office to present the whole truth as they see it, faithfully to 
Republicans and Democratic administrations alike.
    As a member of this Committee, I think all of us who've 
served for some time have seen first-hand the dedication of the 
men and women who work for you. I know that one of the most 
primary missions of the intelligence professionals is to render 
the best professional judgment, regardless of political 
considerations, and always be willing to speak truth to power. 
I support them for their work.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Vice Chairman.
    For Members: Once Director Clapper has been recognized and 
completes his testimony, it is the intention of the Chair to 
recognize members based upon seniority for five-minute 
questions. There is a vote that's scheduled right now for 2:30. 
It's the intent of the Chair to complete our questions in open 
session by the conclusion of that vote, and it is the intent of 
the Chairman to then move to a closed session, which would 
start after the 2:30 vote. If there's need to adjust that, 
we'll make an adjustment on the way.
    Having said that, a reminder to all members that we're in 
open session and that you should take that into account from 
the standpoint of the questions that you ask and realize that 
there are unclassified and classified reports.
    With that, Director Clapper, the floor is yours.

   STATEMENT OF HON. JAMES R. CLAPPER, DIRECTOR OF NATIONAL 
  INTELLIGENCE, ACCOMPANIED BY: JOHN BRENNAN, DIRECTOR OF THE 
   CENTRAL INTELLIGENCE AGENCY; JAMES COMEY, DIRECTOR OF THE 
   FEDERAL BUREAU OF INVESTIGATION; AND ADM. MICHAEL ROGERS, 
            DIRECTOR OF THE NATIONAL SECURITY AGENCY

    Director Clapper. Chairman Burr, Vice Chairman Warner, 
Members of the Committee: First, thank you for your gracious 
comments, particularly for John and me, as this should be our 
last hearing, although one never knows. There's still 10 days 
left. But more importantly, the comments about the work, the 
dedication and the patriotism of the women and men of the 
intelligence community. So we appreciate that.
    We're here today to present the intelligence community's 
assessment of Russian activities and intentions during the 
recent U.S. presidential election. As you indicated, some 
aspects of our report involve very sensitive sources and 
methods that we can't discuss in this open televised hearing. 
So obviously we're asking for your support and understanding as 
we need to defer to a closed setting.
    Our remarks today are based on a highly classified 
assessment that was produced by the three agencies represented 
here, the CIA, FBI, and NSA, at the request of President Obama, 
which we, as you also indicated, released publicly in a 
declassified version last Friday afternoon.
    The report covers the motivation and scope of Moscow's 
intentions regarding the U.S. election and Russia's use of 
cyber tools and media to influence U.S. public opinion. I want 
to make clear that this report does not--repeat, does not--
assess the impact of Russian activities on the actual outcome 
of the 2016 election or draw any conclusions in that regard one 
way or the other. The IC's role is to assess the intentions, 
capabilities, and actions of foreign actors, not to analyze 
U.S. political processes or U.S. public opinion. We can say 
that we did not see evidence of the Russians altering vote 
tallies.
    We can't discuss the full range of classified information 
that supports our conclusions because of the extreme 
sensitivity of these sources. But the key judgments in the 
public and classified versions are the same. I can say that the 
report draws on intelligence collected by all three of these 
agencies represented here, some of which only came to light 
after Election Day.
    When the IC says high confidence, we mean we have multiple 
high-quality sources of information that contribute to that 
assessment. The intelligence comes from a wide range of 
sources, including human sources, technical collection, and 
open source information. The key judgments are based on 
corroborating sources that are consistent with our 
understanding of historical and current Russian behavior.
    While we cannot publicly disclose most of the information 
that backs up these judgments, we have briefed the report in 
detail to President Obama and his team, President-elect Trump 
and his team, and Congressional leadership, and this morning 
the House Permanent Select Committee for Intelligence. They 
have had the opportunity to explore the report and pose any 
questions they have had about the basis for our conclusions.
    Both the classified and public versions of this report were 
written by seasoned, nonpartisan intelligence professionals, 
consistent with the highest standards of analytic objectivity 
and tradecraft that the IC has refined over the last 15 years 
or so to ensure we provide policymakers the most accurate 
insights that we can. I also need to add that this reflects the 
intelligence community's view, not that of the Administration.
    Attributing cyber operations is difficult, but not 
impossible. Every cyber operation, malicious or not, leaves a 
trail. IC analysts use this trail and their constantly growing 
knowledge base of malicious actors and their tools and methods 
to trace operations back to their source and determine their 
connections to foreign governments. This is exactly what we did 
here.
    Let me start with respect to the findings, to first address 
Russia's goals and intentions. We have high confidence that 
President Putin ordered an influence campaign in 2016 aimed at 
the U.S. presidential election. The goals of this campaign were 
to undermine public faith in the U.S. democratic process, 
denigrate Secretary Clinton and harm her electability and 
potential presidency.
    Putin and the Russian government also developed a clear 
preference for President-elect Trump. Russia aspired to help 
President-elect Trump's election chances when possible by 
discrediting Secretary Clinton and publicly contrasting her 
unfavorably to him.
    Moscow's approach evolved over the course of the campaign 
based on Russia's understanding of the electoral prospects of 
each of the candidates. When it appeared to Moscow that 
Secretary Clinton was likely to win, the Russian influence 
campaign began to focus more on undermining her future 
presidency.
    Moscow's influence campaign blended covert intelligence 
operations with overt efforts by Russian government agencies, 
state-funded media, third party intermediaries, and paid social 
media users.
    We're highly confident that the Russian intelligence 
services conducted cyber operations against people and 
organizations associated with the 2016 U.S. presidential 
election, including both major U.S. political parties. Russian 
military intelligence, or the GRU, compromised the email 
accounts of Democratic Party officials and publicly released 
victim data using the Guccifer 2.0 persona and DCLeaks.com and 
in exclusives to media outlets. They also relayed material to 
WikiLeaks.
    Russia collected on some Republican-affiliated targets, but 
did not conduct a comparable disclosure campaign.
    Russia's intelligence obtained and maintained access to 
elements of multiple U.S. State or local electoral boards. 
However, the Department of Homeland Security assesses these 
types of systems were not involved, not involved, in vote 
tallying.
    Russia's state-run propaganda machine contributed to the 
influence campaign by serving as a platform for Kremlin 
messaging using Russian government-funded outlets, such as RT.
    Moscow has long sought to undermine U.S.-led liberal 
democratic order. Russia, like its Soviet predecessor, has a 
history of conducting covert influence campaigns focused on 
U.S. presidential elections. They've used intelligence 
officers, influence agents, and press placements to disparage 
candidates perceived as hostile to the Kremlin.
    Moscow's behavior reflects Russia's more aggressive cyber 
posture in recent years, which poses a major threat to U.S. 
military, diplomatic, commercial, and critical infrastructure 
networks, as well as, as we've seen now, our elections. 
However, Russia's activities in 2016 demonstrated a significant 
escalation in directness, level of activity, and scope of 
effort compared to previous operations. We assess Moscow will 
apply the lessons learned from the 2016 campaign aimed in the 
future to influence efforts worldwide, including against U.S. 
allies.
    I'd like to wrap up by saying I've now got just 10 days 
left in my 53 years or so in the intel business, and I've seen 
the IC get things right and get things wrong. But I believe the 
level of professional tradecraft and cross-agency intelligence 
integration required to put this report together gives me great 
confidence that we've gotten it right here.
    With that, we're open for your questions.
    [The prepared statement of Director Clapper follows:]
    
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
  
    Chairman Burr. Director, thank you for that thorough and 
concise testimony.
    Director Clapper, as I stated in my opening statement, I've 
instructed a select group of Committee staff to complete an 
independent and bipartisan review of the reporting that 
underpins the intelligence community assessment before us 
today. Do I have your assurance that you will provide the 
access that they need to the reporting necessary to make their 
conclusions?
    Director Clapper. Yes.
    Chairman Burr. Director Comey, let me talk about forensics 
for just a minute, because the FBI has the expertise there. I 
know there's tremendous investigative value when the FBI is 
actually able to conduct their own forensics review on devices 
that have suffered cyber intrusions and attacks.
    I believe there's some confusion, though, or at least some 
conflicting reporting as to whether the FBI requested access to 
the DNC's services, the Democratic Congressional Committee 
servers, and John Podesta's personal devices. Did the FBI 
request access to those devices to perform forensics on them?
    Director Comey. Yes, we did.
    Chairman Burr. Would that access have provided intelligence 
or information helpful to your investigation and possibly to 
the findings included in the intelligence community 
assessments?
    Director Comey. Our forensics folks would always prefer to 
get access to the original device or server that's involved. So 
it's the best evidence.
    Chairman Burr. Were you given access to do the forensics on 
those servers?
    Director Comey. We were not. A highly respected private 
company eventually got access and shared with us what they saw 
there.
    Chairman Burr. But is that typically the way the FBI would 
prefer to do the forensics, or would your forensics unit rather 
see the servers and do the forensics themselves?
    Director Comey. We'd always prefer to have access hands-on 
ourselves if that's possible.
    Chairman Burr. Do you know why you were denied access to 
those servers?
    Director Comey. I don't know for sure. I don't know for 
sure.
    Chairman Burr. Was there one request or multiple requests?
    Director Comey. Multiple requests at different levels, and 
ultimately what was agreed to is the private company would 
share with us what they saw.
    Chairman Burr. There has been much debate over the content 
released by WikiLeaks, Director Clapper--I should say DCLeaks--
and what the intentions were behind those disclosures. Director 
Clapper, you made it perfectly clear in your testimony that the 
community feels that vote tallies were not altered.
    Director Clapper. That's correct.
    Chairman Burr. Do you believe there's any evidence that the 
DNC or the DCCC or the Podesta emails released publicly were 
altered in any way?
    Director Clapper. We have no evidence of that.
    Chairman Burr. Director Comey, do you have any intelligence 
that any Republican system that was targeted by these same 
groups was either successfully penetrated or, if penetrated and 
there was data exfiltrated, was there any exfiltration?
    Director Comey. There were successful penetrations of some 
groups and campaigns, particularly at the State level, on the 
Republican side of the aisle, and some limited penetration of 
old Republican National Committee domains.
    Chairman Burr. Penetrations of those National Committee 
domains?
    Director Comey. Right, that were no longer in use.
    Chairman Burr. From the standpoint of Republican candidates 
that were running for President, were those campaigns, any of 
those campaigns, targeted under this same effort by the 
Russians?
    Director Comey. The campaigns themselves, not to my 
knowledge.
    Chairman Burr. Okay.
    Vice Chairman.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    Again, let me thank you, Director Clapper, for your report 
and the point that you continue to make, that it was not your 
job to analyze the effects in terms of the political campaign. 
I would add that any of us who are up here who've ever been 
through a close election, it means that any small item can be 
cause for harm.
    I want to follow up on where the Chairman was headed. 
Director Comey, there was some information, though, that was 
taken from Republican-affiliated entities. There was a great 
deal of information taken from Democrats. There was selective 
leaking with, as the Director has indicated, with clear 
political intent in the process.
    One of the things that I'm a little flabbergasted at is 
that somehow this is viewed by some as in their rear-view 
mirror. Don't the Russians have the capability of taking, even 
if it's old information about Republicans or other information 
about Democrats, and selectively leak that prospectively?
    Director Comey. Sure.
    Vice Chairman Warner. And could you describe--to my mind, 
this is not only one of the most significant items I've seen in 
my political life, but this is an ongoing threat to all of us 
and our electoral process. We have to be on guard, and could 
you speak for, or any other member of the panel speak to, the 
fact that--do you expect to see similar tactics used by 
Russians in terms of the upcoming elections in Germany, France, 
and The Netherlands?
    Director Clapper. Yes, we do.
    Vice Chairman Warner. And are our allies taking what's 
happened in America with significant enough importance and are 
they putting up new defenses trying to guard against these 
activities?
    Director Clapper. I can't say--at least I can't; maybe 
others can here--the extent to which they have reacted to this. 
But they are certainly aware. Europe has long been a target of 
Russian attempts to manipulate electoral processes. So they 
will continue with that. And certainly because of the 
controversy that's generated in our country, I think that will 
reinforce their desire to do that.
    Vice Chairman Warner. One of the things that actually 
another Member of the Committee raised is, certain Russian 
activities, against just to note the seriousness, not only 
retrospectively but prospectively, that I believe there was a 
Russian dissident in London where Russian agents in effect 
planted false information in this individual's personal file 
and then called law enforcement and said: Look in this person's 
file, and there was child pornography placed there.
    Could you anticipate at some time Russia trying, if we 
don't take more aggressive actions, trying those actions 
against American public officials?
    Director Clapper. The Russians I think, while they have no 
compunction about using the full array of tools and techniques 
available in their kitbag. So I wouldn't put it past them to do 
that or any other tools they've used, such as paying people to 
participate in social media, for example.
    Vice Chairman Warner. This has been described as in effect 
the new normal for Russian doctrine; is that correct?
    Director Clapper. I believe, yes.
    Vice Chairman Warner. And again, we've seen our system, 
your words, ``a significant escalation.'' Before us we have 
people with service in the IC and the defense of our Nation for 
hundreds of years. I'd like to just go down the line. In any of 
your careers, have you ever seen this level of Russian 
interference in our political process? We'll start with 
Director Comey and just go down the line.
    Director Comey. No.
    Director Clapper. I have not.
    Director Brennan. No.
    Admiral Rogers. No.
    Vice Chairman Warner. I know we've got a lot of Members. 
Thank you, Mr. Chairman.
    Chairman Burr. Senator Rubio.
    Senator Rubio. Thank you.
    Let me begin by saying I don't believe this thing has 
anything to do with--well, let me just begin by saying, and I 
think the Chairman's already asked, it's clear that there was 
no hacking of voting machines and the changes of tallies. I 
would argue this has nothing even to--because this term 
``hacking'' is thrown around and it makes it sound like some 
sort of cyber-specific situation.
    That cyber tools were used as a means to an end. It isn't 
necessarily what we should be focused on here. What we're 
talking about here is active measures, the active measures 
taken by the government of Vladimir Putin to influence and to 
potentially manipulate American public opinion for the purpose 
of discrediting individual political figures, sowing chaos and 
division in our politics, sowing doubts about the legitimacy of 
our elections.
    So if you look at the situation we now face, here's the 
aftermath: We had an election where, after some intrusions into 
some State databases, there was a leading--one nominee for 
President warning about fraud in the election. Then after the 
election we have some on the other side questioning the 
legitimacy of the President-elect because of Russian 
interference. And we have the President-elect questioning the 
credibility of the intelligence community because of its 
findings.
    This sounds like a pretty effective and successful effort 
to sow chaos, to undermine credibility of our leaders and of 
our government institutions. In essence, it sounds like they 
achieved what they wanted, to get us to fight against each 
other over whether our elections were legitimate and divide us 
in the way that it sows the sort of chaos that they sought to 
achieve.
    My question is along the lines of what Senator Warner asked 
about a moment ago, because we've seen these active measures 
employed in the Baltic States, with Russian-speaking media 
outlets controlled by the Kremlin, in the Dutch referendum, in 
the Brexit vote, in the Italian referendum.
    So let me lay out a hypothetical and you tell me if this is 
the kind of scenario we could face, because they don't limit 
this to elections. They target individual policymakers 
throughout many countries in Europe, particularly those in the 
former Soviet sphere. Hypothetically, imagine that there's a 
U.S. Senator or Congressman who adopts a policy position that 
the Kremlin does not agree with. So somehow through a phishing 
expedition they gain access to your personal computer network, 
and once they gain access to your personal computer network 
they use it to fabricate and/or actually conduct--you used the 
child pornography example; I'd say let's say money-laundering 
activity. Then they call law enforcement and tip them off: 
Congressman John So-and-So has been money laundering. And they 
go into your home, they seize your computer, and sure enough, 
it's sitting there on your network because someone got into it 
and did it. Now you're arrested and you're charged and you're 
removed from the public discourse.
    Is this not what we have seen, the tactics that have been 
employed by Russian intelligence on behalf of the government of 
Vladimir Putin in other countries around the world? Is that not 
a tactic they have used to discredit individual political 
figures? And isn't it true that that could very well happen 
here in the United States?
    Director Clapper. It is certainly well within both their 
technical competence and their potential intent to do things 
like that. The last two years running in my threat 
presentations, I've cited I think the next worrisome trend in 
the cyber business will be the compromise of the fidelity of 
information, and whether it's for a criminal purpose or a 
political purpose. So this is well within the realm, I think, 
of possibility.
    Senator Rubio. In the context of what their goals were, 
ultimately their ultimate goal--they may have or not--I don't 
get into the whole thing of who they wanted to see win. But in 
the end what they really wanted to see was Americans fighting 
against each other, bickering over these things, having 
questions about the legitimacy of the process, our leaders, 
etcetera.
    Was that not their goal? And if it was, have they not 
largely achieved that, based on how this issue has been 
discussed since the aftermath of the election?
    Director Clapper. I think in the first instance that was 
their goal. First, as I said in my prepared remarks, was to sow 
doubt about the efficacy of our system and to cast aspersions 
on our political system.
    Senator Rubio. To create doubt about the credibility of our 
elections, the legitimacy of our leaders, etcetera?
    Director Clapper. All that, yes.
    Senator Rubio. So my last point is, the last time I checked 
Vladimir Putin is neither a registered Democrat nor a 
registered Republican. So what he is interested in is achieving 
these measures in the United States for his own strategic 
purposes. Therefore, there is literally--neither political 
party should take this lightly. This should not be a partisan 
issue. This involves whether or not we are going to allow 
someone to actively interfere in our political discourse and 
divide us as a Nation against each other.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you very much, Mr. Chairman.
    Gentlemen, the same to you. Let me, if I might, begin with 
you, Mr. Comey. After the election, as you know, the foreign 
minister, the Russian foreign minister, was quoted in various 
news reports saying that the Russians had had contacts with 
people associated with the Trump campaign. Now, that may or may 
not be true. There is, however, extensive press reporting on 
the relationships between the Russians and the individuals 
associated with both the Trump campaign and the incoming 
Administration.
    My question for you, Director Comey, is: Has the FBI 
investigated these reported relationships and, if so, what are 
the agency's findings?
    Director Comey. Thank you, Senator. I would never comment 
on investigations, whether we have one or not, in an open forum 
like this. So I really can't answer it one way or another.
    Senator Wyden. Well, can you provide an unclassified 
response to these questions and release it to the American 
people prior to January 20th?
    Director Comey. I'm sorry? You said will I?
    Senator Wyden. Yes. Will you provide an unclassified 
response to the question I've asked? And as I've said, it's 
been reported widely. It's on the Reuters News Service, widely 
reported. Will you provide an unclassified response to the 
question I asked and release it to the American people prior to 
January 20?
    Director Comey. Sir, I'll answer any question you ask, but 
the answer will likely be the same as I just gave you: I can't 
talk about it.
    Senator Wyden. Well, I will tell you, I think the American 
people have a right to know this. And if there is delay in 
declassifying this information and relating it to the American 
people, releasing it to the American people, and it doesn't 
happen before January 20th, I'm not sure it's going to happen. 
That's why I'm troubled, and I hope that you will make a 
declassified statement with respect to the questions I've 
asked.
    Now, let me ask one other question if I might. The report 
has a brief description of Russian cyber intrusions into State 
and local electoral boards. It reads, and I quote: ``DHS 
assesses that the types of systems we observed Russian actors 
targeting or compromising are not involved in vote tallying.''
    My question to you--and I think I'd like to have you 
involved in this, too, Director Clapper. Director Comey, 
Director Clapper, what systems in your view were compromised by 
the Russians and what was the nature and extent of those 
compromises?
    Director Comey. There were intrusions and attempted 
intrusions at State-level voter registration databases. That 
is, not containing the voting mechanism, but who's registered 
to vote and the address and the particulars of that sort. What 
the purpose was of those intrusions is not clear to us at this 
point. And we saw no activity on Election Day that reflected 
that anyone had messed with those voter registration databases. 
But there's no doubt that the Russians attacked, intruded, and 
took data from some of those systems.
    Senator Wyden. Director Clapper.
    Director Clapper. I think that's the response. I don't have 
anything to add to that.
    Senator Wyden. I hope you will also tell us in the days 
ahead, Director Comey, more about the nature of those systems, 
because it is very clear, given what you found and reported in 
the declassified version, that we're going to be dealing with 
these issues coming up. And I think we need to know more 
specifics, maybe do it in a classified session, about the 
nature of those systems.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    First let me start by thanking Director Clapper and 
Director Brennan for your many years of service to your 
country. I also want to say that I appreciate the work that has 
been done by the intelligence community to produce this report, 
and I accept its findings.
    I do think that it's important that we understand more 
fully the extent of Russian intrusions into the electoral 
process to try to shape public opinion. And it is important to 
underscore two points that have been brought out already, and 
that is that there is no evidence that voting totals were 
manipulated or changed or that emails that were released were 
manipulated or changed. Is that correct, Director Clapper?
    Director Clapper. That's correct.
    Senator Collins. The unclassified assessment states that 
Republican-affiliated web sites were hacked by the Russians, 
but the report does not go into detail about whether or not 
data were taken, stolen, from those systems and whether 
information came from networks used by Republican candidates, 
whether that included the Trump campaign.
    Could you give us a fuller understanding of the hacking on 
the Republican side? Was the Trump campaign, for example, 
hacked by the Russians? Or if Mr. Comey is the better person 
for this.
    Director Comey. Thank you, Senator. I want to be thoughtful 
about what I say in an open setting. There was evidence that 
there was hacking directed at State-level organizations, State-
level campaigns, and the RNC, but old domains of the RNC, that 
is email domains that they were no longer using, and that 
information was harvested from there, but it was old stuff. 
None of that was released.
    We did not develop any evidence that the Trump campaign or 
the current RNC was successfully hacked.
    Senator Collins. Does the IC's conclusion that the Russians 
sought to assist President-elect Trump's campaign depend upon 
an assessment, then, that the Russians covertly collected 
information from primarily Democratic sources, but some 
Republican sources as well, but only chose to release the 
derogatory information from Democratic sources?
    Director Clapper. That's correct.
    Senator Collins. And I noticed, having looked at many IC 
assessments, that this one was produced by three agencies. 
Usually I'm used to seeing assessments where the entire 
intelligence community is involved. For example, the State 
Department's Bureau, which was the Bureau that was correct 
about the weapons of mass destruction, was not mentioned in the 
report.
    Is there a reason why it was--did you only need the CIA, 
the FBI, and the NSA?
    Director Clapper. It had a lot to do with the sensitivity 
of the sources and who could actually contribute to putting the 
assessment together. We can discuss all that in closed session.
    Senator Collins. Thank you.
    Finally, I just want to underscore your point that we have 
talked a lot about the Russians' attempt to mold public opinion 
for our campaign and, as Senator Rubio so eloquently said, sow 
the divisions and seeds of doubt that has everyone questioning 
and charges and countercharges, which are really not healthy in 
our democracy when a new administration is taking over.
    But there's also an active Russian campaign to infiltrate, 
as you have said, military systems, defense contractor systems, 
critical infrastructure, commercial interests. Don't we need to 
take a broad look at all of the efforts by our adversaries to 
either control critical infrastructure, for example, or 
influence decision making in those arenas as well?
    Director Clapper. Oh, I think if I understand your comment, 
Senator Collins, the point is valid that this is a multi-
faceted activity. It began with a rather broad-gauged assault, 
if you will, attempt to infiltrate many entities across the 
board--military, commercial, governmental, party-related.
    So yes, they think of this holistically and use many tools, 
as they did in this case. Hacking was just one of them.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Burr. Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Chairman.
    I want to thank Senator Collins for her continued focus on 
critical infrastructure, because that's something that, in 
light of what we've learned, I think we need to think through 
and realize what our exposures are.
    I want to thank all of our witnesses. Attribution, 
obviously, of responsibility in cyber attacks is the first key 
step towards imposing a cost on those involved. Since a number 
of us wrote to the President in November asking that 
information on Russian interference in the presidential 
election be declassified, the four of you and your respective 
agencies have done some very important work in making as much 
of your findings public as possible. I want to say I'm very 
grateful for that. The public needs to understand what is at 
risk here.
    To those who criticize these investigations as partisan, I 
would remind them that Russia didn't do this to help the 
Republican candidate. Russia did this to help Russia and to 
weaken America, and therein lies the heart of why this is so 
important, because in the next election the shoe could easily 
be on the other foot and a foreign power could decide it wants 
the Democrat to win this time.
    I think that both scenarios are deeply offensive, and 
foreign influence on our elections is intolerable no matter 
which party benefits in any given election. The ongoing efforts 
of Russia to impact U.S. elections threatens to undermine faith 
in our democratic systems, which is precisely their goal, and I 
think it's critical that they pay a price for their actions.
    I want to return to the issue of the Russians being able to 
obtain access to parts of our electoral infrastructure, not the 
actual machines that count the votes, but the databases. We've 
had a couple of questions on this, but I want to ask, first of 
all, do we know if they would be able to manipulate the kinds 
of data that they had access to? So, for example, if you have a 
voter databases in a local county that was penetrated, would 
they be able to change the information within that database?
    Director Comey. Potentially, and that was our concern at 
the time we discovered this. We saw no indication of that, but 
that's a definite possibility.
    Senator Heinrich. If that had happened and, for example, 
the FBI or other elements of the intelligence community were 
not looking for that, would the electoral boards have had 
indications that that data had changed?
    Director Comey. Potentially not. They would have the 
indication. When chaos erupted on Election Day, when someone 
shows up to vote and your address is different or your middle 
initial is different or some particulars different, that 
creates delay, controversy, confusion.
    Senator Heinrich. So, unfortunately, I think this tells us 
that we are vulnerable to future attacks and manipulation in 
this case. I think that, obviously, you've laid out a scenario 
that would be very evident, but also we could have very subtle 
impacts to the elections. You could potentially have a scenario 
where someone's voter history, for example, was changed and if 
they haven't voted for a certain number of years maybe they get 
purged from the rolls.
    Or many of us have had--we've seen flyers of our colleagues 
who've been criticized for missing a particular election. Maybe 
they didn't actually miss that election. So I think it begs the 
question what can we do in concert with those local, county, 
and State entities to make sure that we are protecting this 
data the way that we should.
    Director Clapper. Well, part of our charge in this report 
was carried out jointly by--and I'll ask Director Comey to 
speak to this--the Department of Homeland Security and the FBI, 
to come up with a set of sort of best practices for inculcating 
greater degrees of cyber security.
    DHS reached out in the run-up to the election to the states 
and I think ultimately about every State took advantage of the 
recommendations proffered by DHS.
    Jim, do you want to add to that?
    Director Comey. No, I think that's the answer, is just 
understanding that they're a target and availing themselves of 
the expertise and technology to try to protect themselves, then 
we on the intelligence community side pushing to them 
indicators of the bad guys.
    Senator Heinrich. Director Clapper, I want to with my last 
question sort of change gears here for a moment. I asked you in 
the Armed Services Committee hearing last week about the role 
of Russian propaganda media outlets like RT. I saw a comment 
from General Flynn last August that sort of compared RT to CNN 
or MSNBC. Is that a fair analogy? Is there a structural 
difference between the way that RT exists within the media 
infrastructure and, say, a Fox News or MSNBC or CNN or CBS?
    Director Clapper. To me, the major difference here is the 
bulk of funding for RT comes from the Russian government, and 
the Russian government gives editorial direction on what RT is 
supposed to broadcast. So I think that's a little bit different 
than CNN.
    Senator Heinrich. And they seem to exercise that 
discretion.
    Director Clapper. Yes, they do.
    Senator Heinrich. Thank you.
    Chairman Burr. Senator Blunt.
    Senator Blunt. Director Clapper, does RT get any of its 
broadcasts into the United States?
    Director Clapper. Yes, it does, some.
    Senator Blunt. It does?
    Director Clapper. It's very prevalent in Europe and lesser 
so--I think there's an RT channel here.
    Senator Blunt. And that would be a channel that would be 
accessible here to some number of people here?
    Director Clapper. Yes.
    Senator Blunt. Let me----
    Director Clapper. I don't know the audience size of RT.
    Senator Blunt. I doubt if it's very large, would be my 
guess. But I don't want to defend RT. I think it's a propaganda 
arm of a government that is definitely not on our side, and we 
need to be aware of that. We also need to be aware that--I 
think you said at one point that they--I think at that point 
you meant the Russians--think about this holistically and use 
many tools. We have lots of other countries, the Chinese 
particularly, that we also believe look holistically and use 
many tools. It's one of the topics, as you know, from our other 
meetings over the years, I'm very concerned about cyber 
generally.
    I'm also concerned about our failure to secure Federal 
records. I think we could certainly give advice to states as to 
how to secure their records since we've had intrusions into our 
personnel system, since we've had hacking into the clearance 
process that a significant number of Americans, including all 
of you and most of us, have gone through, that are very 
detailed.
    I was the State election official, chief election official 
in Missouri at one time, and those records, while could be 
confusing on Election Day, I don't believe there's any evidence 
of polling places where people had lines that were backed up 
because there were record changes that were out of the 
ordinary. I mean, often people show up and say, oh, I know I 
sent my voter transfer in, when they may or may not have.
    But, Director Comey, we don't have any evidence of any 
disruption of the participation process because somebody got 
into local registration records; is that correct?
    Director Comey. That's correct, Senator.
    Senator Blunt. It's also my opinion that in any State I'm 
aware of there's nothing in those records that's not publicly 
available. You can go to the local registration office. You can 
often go directly into those records to access those records. 
Frankly, we have lost a lot more secure records at the Federal 
level than the relatively open voter registration records.
    That doesn't mean that we don't want to help State and 
local officials secure their records in every way. But those 
are neither the most confidential records nor the hardest 
records to get into. And I guess for purposes of this 
discussion most importantly, there's no indication that any 
effort to get into those records impacted Election Day. I think 
you've all repeatedly said absolutely no indication that 
anything--that there was any intrusion into the vote-counting 
process.
    I was a local election official when we first started 
counting ballots with computers and one of my concerns always 
was that the security for how you verify that system was only 
really protected by how many of those systems were going on all 
over the country. The diversity of the system itself makes it 
fairly hard to manipulate. I don't know that we benefit by 
trying to standardize it, either. But we would benefit by 
providing guidance on how to secure those important records.
    No evidence, I think you said, Director Comey, that the 
Russians were able to get into Trump campaign email or other 
records or the current RNC records; is that right?
    Director Comey. That's correct.
    Senator Blunt. So since we don't believe they got in, the 
fact that they had nothing to release should not be a shock, on 
the records?
    Director Comey. Yes.
    Senator Blunt. And we do believe they tried to get in?
    Director Comey. We can't say with respect to the Trump 
campaign. With respect to the RNC, there's no doubt they hit an 
RNC domain. So it could be they were aiming at the current one 
and just missed it and hit an old one. But I can't say for sure 
sitting here.
    Senator Blunt. Well, I do know that the Chairman of the 
RNC, I heard him say over the weekend he thought they had done 
a better job securing their records. Whether that's true or 
not, I wouldn't know.
    I think I did read in one, more than one published account, 
that the password to Mr. Podesta's email was ``Password1,'' 
with a couple variations of spelling, of using capitals or 
something, and ``password.'' So hopefully lots to be learned 
here, and thanks to all of you for your efforts to help us 
learn it.
    Vice Chairman Warner. Mr. Chairman, could I? For the 
Senator, and it was in the public report, in terms of YouTube 
views and YouTube subscribers, RT actually has a bigger 
presence in the United States than the BBC.
    Senator Blunt. And the BBC is also funded by the 
government, right?
    Chairman Burr. Senator King.
    Senator King. Well, I'll just follow up on that point, 
because this is in the annex to the published report. RT 
America, millions of views on YouTube, 850 million; BBC, about 
two-thirds of that; CNN, significantly lower. The same thing in 
YouTube subscribers: RT America, 450 million.
    So RT is a significant media presence. I think the 
important point with regard to RT is that we are talking about 
hacking. That's how this discussion is characterized. But this 
was a comprehensive strategy involving RT, trolls, paid 
bloggers, hacking, the whole package.
    In fact, General Clapper, this is exactly what the Russians 
have done throughout Eastern Europe for some years; isn't that 
correct?
    Director Clapper. That's correct. It's just as technology 
has progressed the Russians have taken advantage of it for this 
purpose.
    Senator King. I just want to be sure I heard correctly. Mr. 
Comey, did you answer Senator Wyden's question that there is an 
investigation under way as to connections between either of the 
political campaigns and the Russians?
    Director Comey. I didn't say one way or another.
    Senator King. You didn't say that----
    Director Comey. That was my intention at least.
    Senator King. You didn't way one way or another whether 
even there's an investigation under way?
    Director Comey. Correct. Especially in a public forum, we 
never confirm or deny a pending investigation.
    Senator King. The irony of your making that statement here 
I cannot avoid. But I'll move on.
    Director Comey. Well, we sometimes think differently about 
closed investigations. But you asked me if I had any pending 
investigations and we're not going to talk about that.
    Senator King. All right.
    Is it my understanding that there are actually three 
reports--a highly classified that only went to certain 
individuals; classified, which this Committee has seen; and the 
public report--but that the conclusions of those three reports 
are identical? Is that correct?
    Director Clapper. That's correct.
    Senator King. And the only issue, the difference between 
them, is sources and methods; is that correct?
    Director Clapper. Largely.
    Senator King. And the reason you can't reveal sources and 
methods is that you would compromise future opportunities to 
gain information and also compromise fragile sources?
    Director Clapper. Exactly.
    Senator King. It seems to me that trust is one of the 
issues. I mentioned in the Armed Services Committee, my folks 
in Maine tend to be skeptical: Prove it. Speak to me for a 
moment about the difficulty of proving what you've concluded 
pretty unequivocally, without revealing sources and methods? 
How do I convince my barber in Brunswick that this is for real?
    Director Clapper. Well, that's why we have intelligence 
oversight committees, to represent the American people, with 
whom we cannot share as fully and completely as we might like 
the evidentiary proof that we have and in which we're very 
confident.
    So we're very dependent, given the nature of intelligence 
work to start with, very dependent on you as our overseers to 
look at that yourselves on behalf of the electorate.
    Senator King. But I think it is important to make the point 
to the public why sources and methods need to be protected.
    Director Clapper. Well, we spend money that you the 
Congress appropriates. We literally spend billions of dollars 
gaining these accesses, which we would jeopardize. And of 
course, this then impairs the support that we can render to the 
oncoming administration and successive administrations. When we 
lose these accesses, it takes money and time to recover them, 
not to mention putting potentially assets who work for us lives 
at risk.
    Senator King. Was there any political influence brought to 
bear on any of the three of you in the preparation of this 
report? Did the President tell you what he wanted to find? Or 
was this somehow a politicized investigation?
    Director Clapper. Absolutely not. The President asked us to 
compile all available information that we had, and when he was 
briefed on it he made the point once again that he was not--had 
not and was not going to give us any direction. That's why this 
is an IC product; it is not that of the current Administration.
    Senator King. Mr. Comey, would you affirm that as well?
    Director Comey. Yes. I hope I've demonstrated by now I'm 
tone deaf when it comes to politics, and that's the way it 
should be.
    Senator King. Thank you.
    Director Brennan, the same conclusion?
    Director Brennan. Yes, absolutely.
    Senator King. A final sort of technical question. I notice 
that the October 10th--sorry--the October 7th statement was the 
IC, the community itself, implying the entire community. This 
one was FBI, CIA, and DNI. Is there any difference? Why wasn't 
the report that was just released represent the entire 17-
agency community?
    Director Clapper. Again, because the three exclusive 
contributors to this are represented here and because of the 
sensitivity of many of the sources, we made a judgment to 
restrict it to these three agencies.
    Senator King. So there was no elimination of other views?
    Director Clapper. No, there was none. But we felt, again 
because of the sensitivities, the sensitivity of the source, 
which we tried to protect even within the intelligence 
community, to cast the report as emanating from these three 
agencies.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Lankford.
    Senator Lankford. Gentlemen, thank you. Thank you for your 
work and your service to the country and the leadership you've 
brought. I need to ask a couple of questions, some that you've 
heard before, just for quick review, and then I want to build 
on several things from the report.
    Just to clarify again, does anyone know of any votes that 
were changed or an attempt to change votes in voting machines?
    Director Clapper. As we stated in the report, we have no 
evidence of any manipulation of vote tallies whatsoever.
    Senator Lankford. Voter rolls?
    Director Clapper. No. There was reconnoitering, intrusion 
on certain voter rolls, but to the best of our knowledge no 
manipulation of them.
    Senator Lankford. Give me a best guess: How many other 
countries is Russia currently or have, let's say in the last 
four years, tried to influence in their elections?
    Director Clapper. I think one of the annexes portrays that, 
the number of countries that to one degree or another Russia 
has expended effort to try to influence political views or 
opinions.
    Senator Lankford. 15 countries, 20? Give me a ballpark?
    Director Clapper. A couple dozen maybe.
    Senator Lankford. So maybe 20 or so.
    You also make a comment in the report itself about previous 
U.S. elections and Russian engagement in previous U.S. 
elections, going all the way back to KGB putting a person--
recruiting a Democratic Party volunteer or activist--you don't 
give the details on it--even on Jimmy Carter's campaign in the 
1970s--moving forward.
    Tell me about the differences in aggressiveness and style. 
If the Russians and then back to even the Soviets before have 
been involved in our elections since the 1970s and before, tell 
me the degree of difference in this one versus how they've been 
engaged in others?
    Director Clapper. The history of this goes back to the 
sixties, when the Russians attempted to fund certain 
candidates, parlay certain lines of opinion or lines of view. 
And of course, you had the radio broadcasts and that sort of 
thing they would do. As the technology has increased and 
they've gotten more tools available to them, they've broadened 
the spectrum of things that they have done.
    What is unique and what is disturbing, though, about this 
election, 2016, is the aggressiveness and the variety of tools 
they use and their activism in trying to convey information 
that they stole, in an effort to influence the outcome of the 
election. That's different than any previous case.
    Senator Lankford. So additional tools, additional 
aggressiveness. They've been engaged in our elections before; 
this one's just at a much higher level?
    Director Clapper. Yes.
    Senator Lankford. You mentioned as well about the Russians 
trying to hack into both Democrats' computers and political 
operations and Republican, Democratic computer and political 
operations. Between the--let's just say DNC and RNC. We'll just 
use loose terms here. I understand there's multiple other 
entities that are connected there.
    Between DNC and RNC, were they able to penetrate to the 
same level, to get the same quantity, quality, and type of 
materials? Or was there a difference between what they were 
able to glean from the Democratic DNC or the RNC?
    Director Comey. They got far deeper and wider into the DNC 
than the RNC.
    Senator Lankford. Did they use similar methods with both? 
They were able to actually penetrate deeper or wider?
    Director Comey. Hard to say. Hard to say in this forum. 
Hard to say even in a closed forum. Because they didn't get 
into the RNC, it's harder to see. It makes it harder to answer. 
Similar techniques, the spear phishing techniques, were used in 
both cases. But there's no doubt they were more successful at 
DNC, deeper and wider, than at the RNC. They did hit some 
Republican-affiliated organizations, but not the current RNC 
itself; they didn't get in.
    Senator Lankford. So they weren't getting to current 
information, basically?
    Director Comey. Not on the RNC. They got at the State-level 
current information, but not RNC current.
    Senator Lankford. Okay. You also highlight several other 
ways that the Russians have been engaged in our Nation just as 
a whole. You mention not only the election and previous 
elections, but you also move and give two practical examples of 
how the Russians have been engaged in our political system. One 
was an anti-fracking campaign that the Russians seemed to be 
engaged in. Another one was the Occupy Wall Street movement 
that the Russians were engaged in as well.
    Any additional highlights or any additional details that 
you can give on that? It was interesting that you highlighted 
those. Can we tell the nature of, for instance, with the Occupy 
Wall Street, the social media pages that were created to give 
communications capabilities to the Occupy protesters, how those 
were used and if they were used?
    Director Clapper. We probably ought to take that one for 
the record, Senator, just to be for the sake of accuracy and 
just exactly what they did in those two campaigns. I don't have 
that on the top of my head.
    Senator Lankford. It was just in the report. I thought it 
was interesting just as a way of illustration in the report 
that there was an illustration to say that they've also been 
engaged in some of the anti-fracking and some of the Occupy 
Wall Street movement as well.
    I appreciate your work. Thank you.
    Yield back.
    Chairman Burr. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman. I thank all of 
you for your service.
    If I might ask, were there any disagreements on the 
involvement that Russia has had or attempts to have in this 
process of our elections by any of the intelligence community? 
Did any of you have different takes on this or have to 
collaborate in order to come to one conclusion?
    Director Clapper. There was one aspect that there was a 
difference in confidence levels held by NSA versus the rest of 
us on one single aspect. I'd be more comfortable discussing 
that in a closed session.
    Senator Manchin. Any other countries that have been hacking 
us from the standpoint that it brings the concern that you have 
with this? You're saying no one's ever done this to this level 
in our political process, but when you look at espionage, 
sabotage, basically through military or industrial----
    Director Clapper. Well, there's a lot of espionage, 
certainly, collecting and exfiltrating information. Obviously, 
the Chinese come to mind. But very much a contrast between the 
passive collection, passive exfiltration, as opposed to 
actively purloining information and then using it for a 
political end. That's the difference here. The Russians are 
unique.
    Senator Manchin. Yes. I think all of us have been very much 
concerned that the outcome of the election was altered, and you 
have been very clear saying it has not been altered, nor would 
the outcome of this election have been any different.
    Director Clapper. I have to clarify one aspect of what you 
just said, Senator. We did not assess the impact on the 
electorate. We did not do public opinion polls, because that's 
not our charter of the intelligence community to do that. So we 
just can't say about whether the release of the hacked 
information--how that changed any voters' opinion. We don't 
know.
    Senator Manchin. Knowing that, then, what recommendations 
of sanctions would you have? What sanctions recommendation do 
you think would deter Russia or any other country from 
continuing hacking us?
    Director Clapper. Well, that's clearly a policy call. We 
got into that last Thursday at the Senate Armed Services 
Committee, and there are a range of tools that we can use. I 
think Admiral Rogers and my view is that we should consider the 
whole range of tools, not necessarily do a cyber for cyber 
reaction, and look at all of them.
    Senator Manchin. I'm thinking--what I'm trying to get to 
is, if hacking is so serious and the technology we have today 
can alter our lives relatively very quickly, if that's all 
capability and possibilities of happening, shouldn't we have a 
broad basically policy in the United States of America that any 
hacking internationally that's been confirmed and concurred by 
the intelligence community, once you all basically authorize 
that this happened, as you agreed right now this happened in 
our electoral process, that we should enforce sanctions on any 
country that does this, to deter them from doing it?
    Director Clapper. Well, I think again the discussion we had 
in the Armed Services Committee Thursday was if you are 
conducting espionage then if we're going to punish, nation-
states are going to punish each other for conducting espionage, 
which is a passive collection of information, that's a pretty 
heavy policy call which I don't think any of us want to make.
    When it's an activist campaign as it was here, that's a 
different proposition. Again, I think it's not our call to 
decide what to do in response. Our only comment--and I will 
repeat it--was to consider the whole range of potential tools, 
instruments of power, national power, to respond.
    The challenge you get into with cyber for cyber, of course, 
is you have to also consider the counter-retaliation to that. 
While we spend a lot of time agonizing over precision and being 
very surgical, the adversaries may not be quite as precise as 
we might be. So again, the bottom line: Consider all tools.
    Senator Manchin. I'm just saying that when we now it's 
state-sponsored--Article 5 of the NATO Treaty specifies that 
all NATO members will defend the sovereignty and territorial 
integrity of other allies if they are attacked. Has NATO 
intervened at all? Have any of the other countries intervened 
in this, NATO allies?
    Director Clapper. Well, I can't speak for each individual 
NATO member, what they may or may not have done to defend 
themselves or to retaliate against a perceived cyber attack.
    Senator Manchin. Do we as the United States defend any of 
them when they've been attacked?
    Director Clapper. Well, if the NATO alliance and member 
nation invokes Article 5--I believe that's the provision; I'm 
getting out of my lane here--that's where an attack against one 
is considered an attack against all. I don't know that that's 
ever been exercised, I don't think it has, in the cyber 
context.
    Senator Manchin. Thank you, Mr. Chairman. My time has 
expired.
    Chairman Burr. Senator Cotton.
    Senator Cotton. I want to add my voice of gratitude to the 
many Members of this Committee who have expressed our gratitude 
for the men and women of our intelligence community. As 
President-elect Trump said on Friday, he has tremendous respect 
for those men and women, and I share that as well.
    Second, those men and women have concluded that Russia 
hacked into the DNC and John Podesta's email. And while this 
Committee, as the Chairman said, will conduct a thorough 
inquiry into this matter, I have no reason to doubt those 
conclusions.
    Third, I don't doubt it in part because Vladimir Putin is 
KGB, always has been, always will be. Back in the Cold War, 
Russian intelligence used to refer to the United States as 
``the main enemy,'' and they still do today. Vladimir Putin 
undermines the United States and our interests for the same 
reason the scorpion stings the frog as it crosses the river: 
It's in his nature. And he's done much worse for the last 18 
years across numerous domains.
    Seventh, Donald Trump won this election fair and square. 
Vladimir Putin didn't hack into Hillary Clinton's calendar and 
delete rallies in Michigan and Wisconsin, and didn't hack into 
a speech writer's computer and delete speeches that laid out a 
compelling vision for the working class. It's time to look into 
the mirror and say that Hillary Clinton lost this election, not 
because of Vladimir Putin or Jim Comey or fake news or the 
Electoral College, but because she ran a bad campaign.
    That brings me to a conclusion in the report about the 
clear escalation, Director Clapper, of the scope of the 
activities: that Russia has conducted these kind of activities 
in recent years, but this was a clear escalation in the scope 
and the scale; is that correct?
    Director Clapper. That's correct.
    Senator Cotton. Why did they think they could get away with 
that kind of clear escalation against U.S. interests?
    Director Clapper. I think the challenge, particularly in 
the cyber realm, I'll say, is that there's kind of an insidious 
progression of aggressiveness. I've certainly seen this over 
the last six years or so, where other countries get 
progressively more--as they develop more capability, they also 
have an attendant willingness to try to use it.
    We're seeing this particularly with kind of the second 
tier, meaning North Korea and Iran, who don't have the cyber 
capability, we don't believe, of the level of sophistication of 
certainly the Russians or the Chinese, but they are 
progressing. That's to me what's bothersome about this whole 
business of cyber and when do you draw the line to say enough's 
enough.
    Senator Cotton. Let's move to the question of motive. The 
report states that at first Russia, in the assessment of the 
IC, had a desire to undermine U.S. democracy, to sow discord 
and confusion. Over time, though--as it viewed Hillary Clinton 
as the likely winner, to undermine her presidency. But over 
time it developed a ``clear preference''--that's the language--
for Donald Trump.
    Can you tell us when Russia viewed Hillary Clinton as the 
likely winner?
    Director Clapper. I think that was in the summer time 
frame, perhaps July-August or so.
    Senator Cotton. Can you tell us when you believe that 
Vladimir Putin developed a clear preference for Donald Trump?
    Director Clapper. Some time after that. I don't know that, 
certainly not in this setting, we can pick a date when he 
shifted gears, but he clearly did.
    Senator Cotton. Did he or the intelligence services ever 
believe that Donald Trump was a likely winner?
    Director Clapper. Initially, no. They thought that he was a 
fringe candidate and didn't think that at all.
    Senator Cotton. A newspaper headline about the report over 
the weekend said something--I paraphrase--Russian cyber attack 
aims to install Putin in White House. Would a more accurate 
headline perhaps be ``Russian cyber attack aims to undermine 
expected Clinton presidency''?
    Director Clapper. I don't think you'll find a line like 
that in our report.
    Senator Cotton. Your assessment of motive is based in part 
on the selective leaking and the relative levels of targeting 
Democratic material and Republican material on the one hand 
versus the other; is that correct? More democratic material was 
leaked, even though----
    Director Clapper. Yes, clearly.
    Senator Cotton. Is it possible that they just leaked the 
Democratic material because they thought Hillary Clinton was 
going to win and they wanted to undermine her and they didn't 
view it as profitable to leak Republican material?
    Director Clapper. Well, that's--yes. I mean, that would 
seem to be the logical observation, that they favored the 
President-elect and they wished to denigrate as much as 
possible Hillary Clinton. And had she won, their plan was to 
try to undermine her presidency.
    Senator Cotton. One final question about the leaks that 
have happened in this case, first in December before President 
Obama directed this review to occur, and then there were none 
until last Wednesday night when the Washington Post reported on 
what may be sensitive signals intelligence. Director Comey, 
have you received a crimes report from anyone in the 
intelligence community about these leaks?
    Director Comey. I don't think yet as to the December leak 
or, obviously, anything this month, not yet.
    Senator Cotton. Mr. Chairman, I suggest that we should 
include those leaks as part of our inquiry.
    Chairman Burr. The Chair and the Vice Chair are working on 
that right now.
    Senator Harris.
    Senator Harris. Director Clapper, your report states that, 
quote, ``We assess Russian intelligence services will continue 
to develop capabilities to provide Putin with options to use 
against the United States, judging from past practice and 
current efforts.'' You go on to write: ``Immediately after 
Election Day, we assess Russian intelligence began a spear 
phishing campaign targeting U.S. Government employees and 
individuals associated with United States think tanks and NGOs 
in national security, defense, and foreign policy fields. This 
campaign could provide the material for future influence 
efforts.'' Then you indicate that the, quote, ``election 
operation signals a new normal in Russian influence 
operations.''
    So indeed this is troubling. My question is, is the 
intelligence community supporting efforts to ensure that the 
computer networks and personal devices of the President-elect 
and his transition team are protected from continued influence?
    Director Clapper. It's my understanding that they are very, 
very sensitive to this threat, and we've done what we can to 
educate the transition team about the pitfalls of mobile 
devices in secure areas and the like.
    Senator Harris. Do you believe your education efforts have 
been successful?
    Director Clapper. You'd have to ask them, I think.
    Senator Harris. What about the President-elect's Twitter 
account, and in particular what is being done to safeguard his 
phone and account, given the potentially dire national security 
consequences of an infiltration?
    Director Clapper. Probably best left to a closed 
environment to talk about that.
    Senator Harris. Okay.
    Director Comey, this is more of a comment than a question, 
but I wanted to echo the points made by Senators Wyden and 
King. I understand why the FBI could not disclose and comment 
on ongoing investigations. However, it seems that, despite past 
precedent, the new standard that was created over the summer 
and fall regarding the investigation into Secretary Clinton's 
email server was that there was a unique public interest in the 
transparency of that issue.
    Particularly given the findings of your report, I am not 
sure I can think of an issue of more serious public interest 
than this one. This Committee needs to understand what the FBI 
does and does not know about campaign communications with 
Russia, and I hope that we can follow up on this in closed 
session to have more of an idea of what the FBI knows and what 
we might do to prevent any further harm.
    Thank you.
    Chairman Burr. Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman. And thanks to each 
of you for your service to the country and for the people you 
represent, who faithfully discharge their duties daily, many 
times unheralded.
    I wanted to ask first of all, there seems to be a disparity 
between the RNC servers and the DNC servers in terms of their 
vulnerability. Admiral Rogers, this perhaps is a good question 
for you. Is good practice in terms of defenses important in 
terms of securing information like that that was stolen in 
these hacks?
    Admiral Rogers. Yes.
    Senator Cornyn. Would this also be--would your concerns 
about the vulnerability of a private server also extend to 
government officials using private email servers and engaging 
in an exchange of classified information on those private email 
servers?
    Admiral Rogers. I would argue everyone needs to have an 
awareness of how they communicate, whether we're talking 
personal or at work. That's the nature of the world we find 
ourselves in.
    Senator Cornyn. And to do so in compliance with the law, 
the protocol, etcetera, of the Federal Government.
    When did the Russians first begin to hack U.S. networks, 
Admiral Rogers?
    Admiral Rogers. With respect to this particular issue?
    Senator Cornyn. No. I'm just wondering, how long has this 
been going on?
    Admiral Rogers. Since the 1990s, off the top of my head.
    Senator Cornyn. So while this has certainly become much 
more visible and focused, given the focus of the effort, this 
really is a longstanding effort by nation-states, including 
Russia, to hack into our networks, correct?
    Admiral Rogers. Yes, we have seen longstanding efforts to 
hack into our networks.
    Senator Cornyn. This was perhaps unusual--maybe I should 
ask you--in that there was a coordination between the hacking 
and the propaganda efforts of Russia in order to try to 
undermine the legitimacy of the election process. Director 
Clapper, would you agree with that statement?
    Director Clapper. Yes, orchestrated by the intelligence 
services.
    Senator Cornyn. Is this the first time in your experience 
where you've seen that sort of multi-layered, multi-faceted 
coordination between propaganda efforts and hacking into our 
networks, or is this a new normal?
    Director Clapper. Well, it's a progression of capabilities 
as they've acquired them and used them. They certainly have 
longstanding practices like that against European countries.
    Senator Cornyn. What has the United States done since--the 
United States Government or--let's start with the U.S. 
Government. What have we done to respond to the hackings that 
have been occurring in U.S. networks since the 1990s in order 
to discourage or deter that sort of activity?
    Director Clapper. Well, we've tried to up our game 
defensively. We have selectively responded. The Sony Picture 
attack comes to mind, and certainly there was a response to 
this, this case. But the issue, as I said earlier, is if 
nation-states are conducting espionage against one another, 
which we do as well, as many other nation-states, that's--and 
if the standard is to punish because of the conduct of detected 
espionage, well, that's another policy call.
    Senator Cornyn. As I recall, during the publicity about the 
Sony hack there was a lot of discussion as to how do you 
characterize this? Was this an act of war, was this a 
commercial--criminal activity involving a commercial 
enterprise? How do you think about that? Have we gotten better 
about characterizing the nature of the attack?
    Director Clapper. Well, we in the intelligence community, 
particularly the Bureau, I think do an excellent job of 
attribution. Then of course the hard part is what, if anything, 
to do about it. Again, I would repeat what was said earlier 
about, against a cyber activity is the best response a counter-
cyber activity or not? In the end, that wasn't the case with 
the Sony attack.
    Senator Cornyn. Well, there could be multiple options, as I 
think you alluded to. It doesn't need to just be cyber for 
cyber. There are a multitude of retaliatory options, correct?
    Director Clapper. Exactly, yes, sir. That was the point I 
think that Admiral Rogers and I made to the Senate Armed 
Services Committee when we had this discussion there Thursday.
    Senator Cornyn. Perhaps this is heresy since I'm a new 
Member of the Intelligence Committee, but let me just give you 
my impression: that we have so fractured the jurisdiction of 
oversight of cyber issues that we need to figure out some 
better whole-of-government approach. I see Senator Reed smiling 
because, of course, the Armed Services Committee has some 
involvement in this; Homeland Security and Government Affairs.
    But we need to figure out some way, I think, to deal with a 
whole-of-government approach so we are working as efficiently 
and effectively as possible. I know from what I read in the 
newspaper President-elect Trump has said he wants to commission 
a study to come back to him within 90 days, if I'm not 
mistaken, with some recommendations in that regard. We would 
certainly welcome your insight and advice.
    Thank you.
    Chairman Burr. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. Gentlemen, thank you 
for your dedicated service to the Nation for many, many, years.
    The non-classified intelligence assessment which is 
available to the public concludes that, quote: ``Putin, his 
advisers, and the Russian government developed a clear 
preference for President-elect Trump over Secretary Clinton,'' 
close quote, in part because, quote, ``Putin has had many 
positive experiences working with Western political leaders 
whose business interests made them more disposed to deal with 
Russia, such as former Italian Prime Minister Silvio Berlusconi 
and former German Chancellor Gerhard Schroeder.''
    Either General Clapper or Director Comey, does the 
community have any intelligence that suggests that President-
elect Trump or those close to him may have business interests 
that made them more disposed to deal with Russia?
    Director Clapper. The Russians just believed or came to the 
conclusion that, because the President-elect is a businessman, 
that he would be easier to make deals with than the Democrats.
    Senator Reed. Thank you.
    Director Clapper, at the Armed Services Committee hearing I 
asked you whether, given the scope and the difficulty of hiding 
all the different aspects of this comprehensive campaign, was 
this--first, was Putin advised that there was a significant 
chance of being discovered? And second, did he disregard that 
because he wanted to send a message as well as being disruptive 
of our process? And you deferred that response until after you 
had briefed the President and the President-elect. Can you add 
anything to that?
    Director Clapper. I'm sorry, sir. Would you repeat the 
question?
    Senator Reed. Given the multiple aspects of this campaign--
the hacking, the trolling, the social media--the idea that this 
could be done unnoticed--and given the scale and the intent--
would be unnoticed, raises one question at least: Was he in any 
way advised that, you're taking a risk here? And second, did he 
disregard that risk, not only to be disruptive, but also to 
signal to the world that he is prepared to engage in this cyber 
operation and send us a signal?
    Director Clapper. Well, I think, as we've seen, he I think 
always feels that, or felt, that he had deniability. And of 
course, that's what--both the Russian government and the 
Russian media are denying any culpability. And we're somewhat 
restricted because of our sources and methods concerns about 
showing our hand, showing our deck here, so to speak, and what 
led us to those conclusions that we feel so strongly about.
    So he knows that. He's a professional intelligence officer 
and he probably understands our approach to the protection of 
sources and methods, and so he can just deny it and get away 
with it.
    Senator Reed. Let me just a final point here----
    Director Brennan. If I could add, Senator.
    Senator Reed. Yes.
    Director Brennan. When this started to break in the press 
in early August, I had a conversation with the director of the 
FSB, Alexander Bortnikov, and told him clearly that if Russia 
was doing this they were playing with fire and it would 
backfire and they would be roundly condemned by not only the 
U.S. Government, but also the American people.
    And he said he would relay that to Mr. Putin at the time. 
He denied any activity along these lines, but I made it very 
clear to him that basically we were onto him.
    Senator Reed. A final point. Everyone has indicated and the 
report indicates that there was an effort made against the 
Democratic political campaigns and Republican political 
campaigns, but one was much more aggressive, frankly, than the 
other in terms of finding ways into the servers of not only the 
DNC, but the individual Democratic operatives.
    Given what you posit as the goal of Putin, which was to 
discredit Secretary Clinton as much as possible, assuming she 
might be President, or in some way disrupting her campaign, it 
seems to me, at least to me, logical that they would devote 
those kind of resources to, one, to going after Democratic 
computers rather than resources to Republicans. Is that borne 
out by your analysis, Director Clapper?
    Director Clapper. Yes.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Risch.
    Senator Risch. Well, Mr. Chairman, let me say that, after 
sitting through this, to put this in perspective for the 
American people, those of us who are involved in intelligence 
matters at the dais here, for that matter at the table, I doubt 
there was anyone who was shocked or even mildly surprised when 
these facts came out.
    This hacking business is ubiquitous and it has been since 
the internet was set up. The question was asked, when did 
Russia start this? I would expect it was the day that they 
hooked up to the internet. This goes on constantly, and as 
we've been sitting here there have been thousands of efforts 
against U.S. entities, U.S. computers, government, non-
government, and that's just in the U.S. This has been going on 
all over the world.
    Those of us who engage in this and have watched these 
things, most of which have never become public, on a scale of 
one to 10, we've seen a number of 10s. This one doesn't come 
close to a 10. But the interesting thing is, because it's been 
in the political--it's in the political spectrum, it has caught 
the fancy of the media, it's caught the fancy of the American 
people.
    Russia is not in my judgment the most aggressive actor in 
this business. I think there are other actors that are much 
more aggressive, and indeed I think much more dangerous. It 
isn't limited to state actors. There's state actors, there's 
non-state actors, and there's combinations. They go after 
everything.
    The criminal element is particularly troubling to a lot of 
people. I just heard Director Clapper. I think it's the first 
time I've ever heard an admission by an intelligence person 
that the U.S. does espionage. By that I think he's inferring, 
in the context we're in, that the U.S. does this. Now, I am not 
confirming that. I'll leave that to Mr. Clapper to do.
    But nonetheless, the other interesting thing I've found is 
that I think I agree with Director Clapper entirely that you 
want to be careful here when you're talking about how you're 
going to respond to this. If it's responded to with a similar 
type of hacking, that escalates very, very quickly. We've sat 
through, actually gamed out what would happen in the situation 
where we had an actual hacking and then decided how we were 
going to respond to it, and if we did how the other side would 
respond to it.
    The good that has come out of all of this is that finally I 
think the American people are getting a picture of how big 
this, how ubiquitous it is, how dangerous it is, and that 
something has to be done about it. Director Clapper I think is 
correct that our response has been to up our game as far as our 
defensive posture is concerned. Really, that is where the focus 
needs to be.
    Again, one would hope we could find the silver bullet where 
you could stand up a defense and say: Look, it's there; this 
can never be penetrated; anything that happens behind this wall 
is just fine. I don't know if I'll live to see that day. I 
don't know if anybody will.
    But in any event, it is good that we have this on the 
table. It's good that we're having the discussion about it. And 
I'm hoping that everyone will be patient with us and will be 
supportive as we do our best to up our game, to defend on these 
things, particularly in the realm of most of the challenges 
that the government generally and the public generally doesn't 
hear about, but the intelligence community does.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Senator Risch.
    The vote has started. Senator Warner would like a question 
and a clarification. I have a clarification. Do any other 
members seek anything in this open session?
    [No response.]
    If not, I'll recognize Senator Warner.
    Vice Chairman Warner. My question is this. One, I'm 
intrigued by my colleague's comments. Many of us felt the 
conclusions were accurate. In many ways, it was the President-
elect until Friday who was questioning these results.
    I believe--and I would go back to my comments in my first 
line of questions, when all four of you, with literally 
hundreds of years of experience, said you have never seen 
anything in your career that approaches this level of Russian 
activities. We can debate who is the most serious threat, but 
anyone that underestimates the seriousness of this Russian 
threat I think does so at their own peril.
    I want to ask you, Director Comey, and then I want to get a 
clarification. If a thief came up to the DNC and broke in and 
stole all of the most valuable information, and that same thief 
then drove up to the RNC and, because they had a better lock on 
the door, was only able to break in and get some old 
information, would both of those be crimes and would both of 
those be prosecuted?
    Director Comey. Sure, yes.
    Vice Chairman Warner. Director Clapper, one thing that I 
want to clarify, because I think, particularly with Senator 
Collins, there might have been some ambiguity. The conclusion 
you reached that the Russian government at its highest levels 
was targeting Clinton and favoring Putin was not the result 
simply of more--I'm sorry, favoring Trump and disfavoring 
Clinton--was not the result simply of more leakage on the 
Democratic side, but I believe, based upon page 1 of your 
unclassified report, is that Putin most likely wanted to 
discredit Clinton since he'd publicly blamed her since 2011 and 
then a series of other activities. That conclusion of favoring 
Trump and not favoring Clinton was not simply the result of 
disproportionate leaking on the Democratic side; is that 
correct? I just want to clarify that for the record.
    Director Clapper. You mean just by virtue of the hacking?
    Vice Chairman Warner. My understanding, I was left with the 
impression that the reason you reached the conclusion that 
there was favoring of Trump over Clinton was because of the 
disproportionate releasing of information. I've seen in the 
non-classified report lots of evidence that it was ongoing 
concerns between Putin and Clinton.
    Director Clapper. Clearly, one aspect of this. But we 
reviewed the totality of what they were doing. Whether by this 
means or by the multi-faceted propaganda campaign, the use of 
social media tools, planting fake news, there was a campaign, 
all of which clearly seemed to favor, clearly favored----
    Vice Chairman Warner. Including after the election----
    Director Clapper [continuing]. A preference for the 
President-elect over Secretary Clinton.
    Vice Chairman Warner. Including after the election, the 
fact that Russian efforts to discredit the electoral process in 
America stopped?
    Director Clapper. Well, I think that was an overall 
objective throughout, to accomplish that objective, then as 
things moved on and progressed clearly a proclivity for the 
President-elect and an attempt to denigrate Secretary Clinton.
    Director Comey. If I might add, Senator, that's the 
challenge of the unclassified forum. There's more behind that 
conclusion. We just can't talk about it here.
    Chairman Burr. Director Clapper, I think this is in the 
scope of an open session. You'll tell me if it's not. Is there 
any intelligence that Russian leadership, specifically Putin, 
directed the GRU or the SVR to penetrate these political 
organizations? Or was the leadership involvement in this 
process triggered by what they were able to exfiltrate and when 
the leadership saw the breadth of information they directed a 
disinformation campaign to happen?
    Director Clapper. I think, as we said in our October 
statement, this came from the highest levels of the government, 
and I would assess that there was overall broad direction 
given, with execution carried out by the services.
    Chairman Burr. So one can take the fact that this has been 
a continual fishing process on the part of the Russians that 
started in 2014, and from 2014 forward, that was all directed 
by the highest echelons of the Russian government?
    Director Clapper. Yes. Again, I think it would be best to 
get into the details of that in a classified setting.
    Chairman Burr. And we will do that.
    There are a couple minutes left in a two-vote session. We 
will reconvene in the Committee room in closed session at the 
completion of that vote. This open hearing is adjourned.
    [Whereupon, at 2:45 p.m., the hearing was adjourned.]
  

                                  [all]



</pre></body></html>
